BECKER GALLAG HER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 19-930
CIC SERVICES, LLC,

Petitioner,
V.

INTERNAL REVENUE SERVICE, ET AL.,

Respondents .
As required by Supreme Court Rule 33. l(h), I
certify that the Brief of the Alabama Captive
Insurance Association, Inc., Arizona Captive Insurance
Association, Inc., Captive Insurance Companies
Association, Inc., Connecticut Captive Insurance
Association, Delaware Captive Insurance Association,
Inc., Captive Insurance Council of the District of
Columbia, Inc., Georgia Captive Insurance
Association, Inc., Hawaii Captive Insurance Council
Corporation , Kentucky Captive Association, Inc.,
Missouri Captive Insurance Association, Montana
Captive Insurance Association, Inc., Nevada Captive
Insurance Council, Captive Insurance Group of New
Jersey, North Carolina Captive Insurance Association,
Oklahoma Captive Insurance Association, Puerto Rico
Internation al Insurers Association, Self-Insuran ce
Institute of America, Inc., South Carolina Captive
Insurance Association, Inc., Tennessee Captive
Insurance Association, Inc., Texas Captive Insurance
Association, Utah Captive Insurance Association, U.S.
Virgin Islands Captive Insurance Association, and
Vermont Captive Insurance Association as Amici

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

(800) 890.5001

Suite 102

www.beckergallagher.com

Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Curiae in Support of Petitioner contains 7,804 words,
excluding the parts of the Brief that are exempted by
Supreme Court Rule 33. l(d).
I declare under penalty of per3ury that the
foregoing is true and correct.
Executed on July 22, 2020.

DonnaJ. Wo
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Sworn to and subscribed before me by said Affiant
on the date designated below.

Date:

[seal]

k t};;L
d

~.
cktv
Notary Public

,

a

.

·"
f.,_.,..-

,.,

